CORPORATION FOR PUBLIC BROADCASTING

    OFFICE OF INSPECTOR GENERAL




             System Review Report

                      of the

   U.S. Securities and Exchange Commission's

  Office of Inspector General Audit Organization





           REPORT NO. EC0908-1001



                January 22, 2010





                 Kenneth A. Konz

                Inspector General

•
Corporation
for Public
Broadcasting
                                                                       Office of Inspector General




January 22, 2010


Mr. H. David Kotz
Inspector General
U.S. Securities and Exchange Commission
Washington, D.C. 20549

Dear Mr. Kotz:

We have reviewed the system of quality control for the audit organization of the
Securities and Exchange Commission (SEC), Office of Inspector General (OIG), in
effect for the year ended March 31,2009. A system of quality control encompasses the
OIG's organizational structure and the policies adopted and procedures established to
provide it with reasonable assurance of conforming with Government Auditing
Standards. The elements of quality control are described in Government Auditing
Standards. The SEC OIG is responsible for designing a system of quality control and
complying with it to provide the SEC OIG with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects.
Our responsibility is to express an opinion on the design of the system of quality control
and the SEC OIG's compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and
guidelines established by the Council of the Inspectors General on Integrity and
Efficiency (CIGIE). During our review, we interviewed the SEC OIG's personnel,
obtained an understanding of the nature of the OIG's audit organization, and the design
of the OIG's system of quality control sufficient to assess the risks implicit in its audit
function. Based on our assessments, we selected audit engagements and
administrative files to test for conformity with professional standards and compliance
with the SEC OIG's system of quality control. The engagements selected represented a
reasonable cross-section of the SEC OIG's audit activities. Prior to concluding the
review, we reassessed the adequacy of the scope of the peer review procedures and
met with SEC OIG's management to discuss the results of our review.

401 Ninth Street. W

Washington. DC 20004-2129

202879.9669 202.879.9669 fox

kkonz@cpb.org wW\v.cpb.org

In performing our review, we obtained an understanding of the system of quality control
for the SEC GIG's audit organization. In addition, we tested compliance with the SEC
GIG's quality control policies and procedures to the extent we considered appropriate.
These tests covered the application of the SEC GIG's policies and procedures on
selected audit engagements. Gur review was based on selected tests; therefore, it
would not necessarily detect all weaknesses in the SEC GIG's system of quality control
or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate.

Enclosure 1 to this report identifies the audit engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of the SEC GIG in
effect for the year ended March 31, 2009, has been suitably designed and complied
with to provide the SEC GIG with reasonable assurance of performing and reporting in
conformity with applicable professional standards in all material respects. Federal audit
organizations can receive a rating of pass, pass with deficiencies, or fail. The SEC GIG
has received a peer review rating of pass. As is customary, we have issued a letter of
comment, dated January 22,2010, that sets forth findings related to the design of and
compliance with the SEC GIG's system of quality control that we did not consider to be
of sufficient significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to the SEC GIG's monitoring of audit
work performed by Independent Public Accountants (IPA) under contract, where the IPA
served as the principal auditor. It should be noted that monitoring of audit work
performed by IPAs is not an audit and therefore is not subject to the requirements of the
Government Auditing Standards. The purpose of our limited procedures was to
determine whether the SEC GIG had controls to ensure IPAs performed contracted
work in accordance with professional standards. However, our objective was not to
express an opinion and accordingly, we do not express an opinion on the SEC GIG's
monitoring of work performed by IPAs.




                                             2

In response to the draft report, the SEC GIG's management provided written
comments on September 15, 2009. Their response is included as Enclosure 2 in
this report.


             {L     /1//
  enneth A.  Konz,~
Inspector General



Enclosures




                                         3

   ••                                                                             Enclosure 1
    ••
••                                 SCOPE AND METHODOLOGY


••       We tested compliance with the SEC DIG audit organization's system of quality control to
         the extent we considered appropriate. Those tests included a review of 2 of 8 audit

••       reports issued in accordance with Government Auditing Standards, during the period April
         1,2008, through March 31, 2009, and semiannual reporting periods ended September 30,


 ••      2008 and March 31,2009. We also reviewed the internal quality control reviews
         performed by the SEC DIG.


••       In addition, we reviewed the SEC DIG's monitoring of audit work performed by an IPA,
         during the period April 1, 2008, through March 31, 2009. During that period, the SEC DIG

  ••     contracted for the audit of its agency's Division of Enforcement's Disgorgement Waivers
         and another audit to be performed in accordance with Government Auditing Standards.

••       Reviewed Audit Engagements Performed by the SEC DIG
.­
.­.­
    Report No.          Report Date                     Report Title
            459             March 13, 2009             Regulation D Exemption Process


.­

......      448             March 27, 2009             2008 Audit of Sensitive Payments





......   Reviewed Monitoring Files of the SEC DIG for Contracted Audit Engagements

         Report No.          Report Date                       Report Title

......      452             February 3, 2009     Division of Enforcement's Disgorgement Waivers



......
......
..
......
......
•
••
 •
      ••
     ••                                                    UNITED STATES
                                                                                                  Enclosure 2



    ••
                                            SECURITIES AND EXCHANGE COMMISSION
                                                      WASHINGTON, D.C.    20549




   ••
                   OFFICE OF
               INS PECTOR GENERAL

                                                         September 15, 2009


  ••                      Mr. Kenneth Konz

                          Inspector General

                          Corporation for Public Broadcasting


 ••                       401 Ninth Street, N.W.




 .:

                          Washington, D.C. 20004



 •
 ..
..
..  :
                                        Re:   System Review Report on the
                                              U.S. Securities and Exchange Commission
                                              Office of Inspector General Audit Organization




 ..
..
..

                          Dear M r. Konz:

                                Thank you for the opportunity to comment on the draft System Review
                          Report on the U.S. Securities and Exchange Commission Office of Inspector



..
..
..

                          General Audit Organization's system of quality controls.

                                 We are very pleased that your office concluded that our system of quality
                          controls was suitably designed and provided reasonable assurances that our



..
..
..

                          audit organization conducted and reported audits in conformity with the
                          applicable professional standards established by the Comptroller General of the
                          United States, in all material respects. We are very pleased to receive a
                          "passing" peer review rating .



..
..
..
                        The external peer review is an important aspect to our quality control
                          system. We are committed to maintaining an effective system of quality controls
                          and strive to continuously improve our audit operations. We will provide a



..
..
..

                          separate response to your "Letter of Comment" and agree that your "Letter of
                          Comment" discusses findings that are not sufficient enough to affect our system
                          of quality controls.




..
..
..

                                We appreciate the thorough and exhaustive manner in which your staff
                          conducted this review. Should you have any questions, please do not hesitate to
                          contact me or Jacqueline Wilson, Assistant Inspector General for Audits, at (202)
                          551-6326.



..
..
..
                                              /f~
                                                           Sincerely,




...
...
                                                   Inspector General



...
...

A·

